No. 20-126
IN THE

~upreme Qtourt of tbe Wniteb ~tates
ANDALUSIAN GLOBAL OESIGNATlm
ACTIVITY COMPANY, ET AL.,

v.

Petitioners,

THE FINANCIAL OVERSIGHT AND MANAGEMENT BOARD
FOR PUERTO RICO, ET AL.,

Respondents.
CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing.of the bar of this Court and
that the Reply Brief for Petitioners contains 3,000 words and complies with the word
limitation established by Rule 33.l(g)(iii) of the Rules of this Court.
Dated: October 27, 2020

